<html>
<title> - A New Ocean in the North: Perils and Possibilities</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








115 Congress                                                                          Printed for the use of the
1st Session                                                      Commission on Security and Cooperation in Europe
                                                          



                      
                        A New Ocean in the North:Perils and Possibilities


 






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                  October 5, 2017
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                               
                                   Briefing of the
               Commission on Security and Cooperation in Europe
__________________________________________________________________________________________
                                 Washington: 2018                                                








          Commission on Security and Cooperation in Europe
                234 Ford House Office Building
                     Washington, DC 20515
                        202-225-1901
                    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4a7b7a7a184a9a5ada8eaacabb1b7a1eaa3abb2">[email&#160;protected]</a>
                    http://www.csce.gov
                     @HelsinkiComm

             Legislative Branch Commissioners

              HOUSE                       SENATE
CHRISTOPHER H. SMITH, New Jersey       ROGER WICKER, Mississippi,
          Co-Chairman                  Chairman
ALCEE L. HASTINGS, Florida             BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama            JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas              CORY GARDNER, Colorado
STEVE COHEN, Tennessee                 MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina         JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois               THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas              TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                  SHELDON WHITEHOUSE, Rhode Island
                        
 

                Executive Branch Commissioners


                    DEPARTMENT OF STATE
	            DEPARTMENT OF DEFENSE
                    DEPARTMENT OF COMMERCE
                    
                    
                          (II)
                          
                          
                          
ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.




                       A New Ocean in the North:

                       Perils and Possibilities
                         __________________
  
                            October 5, 2017


                                                                                        Page
                              PARTICIPANTS


Paul Massaro, Policy Advisor, Commission for Security and Cooperation in Europe .........  1  

Julie Gourley, Senior Arctic Official, U.S. Department of State .........................  2

Iina Peltonen, Embassy of Finland in the United States ..................................  5

Rear Admiral Michael F. McAllister, Commander, 17th Coast Guard 
District, U.S. Coast Guard ..............................................................  7

Melanie Bahnke, President and CEO, Kawerak, Inc. ........................................ 10
Mark Smith, CEO, Vitus Energy ........................................................... 14

 
                                    (IV)


 
                          A New Ocean in the North:
                          Perils and Possibilities
                              ----------                              

                            October 5, 2017
                            
            Commission on Security and Cooperation in Europe
                          Washington, DC



    The briefing was held at 3:32 p.m. in Room G11, Dirksen Senate 
Office Building, Washington, DC, Paul Massaro, Policy Advisor, 
Commission on Security and Cooperation in Europe, moderating.
    Panelists present: Paul Massaro III, Policy Advisor, Commission on 
Security and Cooperation in Europe; Julie Gourley, Senior Arctic 
Official, U.S. Department of State; Iina Peltonen, Embassy of Finland 
in the United States; Rear Admiral Michael F. McAllister, Commander, 
17th Coast Guard District, U.S. Coast Guard; Melanie Bahnke, President 
and CEO, Kawerak, Inc.; and Mark Smith, CEO, Vitus Energy.

    Mr. Massaro. Well, thank you all for coming today. Good afternoon, 
ladies and gentlemen. Welcome to today's briefing on Arctic 
infrastructure and environment. My name is Paul Massaro, and I am the 
policy advisor for economic and environmental issues at the Helsinki 
Commission. I'd like to thank the Senate Arctic Caucus, Senate Oceans 
Caucus and Congressional Arctic Working Group for co-hosting this event 
with the commission today.
    The Arctic is a topic of increasing interest to the Organization 
for Security and Cooperation in Europe, or the OSCE. This organization 
has a mandate to monitor economic and environmental issues within this 
region, which includes all eight of the Arctic nations that make up the 
Arctic Council, the primary international forum for discussion of 
Arctic issues. It is the OSCE Parliamentary Assembly, however, that has 
been most active on the Arctic and the OSCE context. This assembly has 
a special representative on Arctic issues and has passed resolutions 
dealing with the Arctic in the past at a number of its summer meetings.
    The Arctic is clearly a region of growing global importance. It is 
resource rich and looks to become a route through which goods can be 
transported more efficiently. It is also a region of enormous 
biodiversity and environmental importance. As the Arctic gradually 
becomes more accessible, so do our opportunities to reap the benefits 
of its sustainable development. Our briefing today will examine the 
importance of the Arctic to U.S. policymakers both for its economic 
viability and environmental implications. In addition, it will analyze 
the challenges we face in playing a leading role in the region and 
unlocking its economic potential.
    We are grateful to have such distinguished panelists with us today. 
I look forward to hearing your thoughts on this developing issue. 
First, we have Julie Gourley, who was at our last briefing as well, who 
joins us from the State Department. Julie is the current United States 
senior Arctic official, a position she has held since 2005. She is also 
the primary U.S. representative to the Arctic Council, where she 
manages the State Department's Arctic Council portfolio and helps 
forward U.S. foreign policy interests in the region.
    Following Julie, we have Iina Peltonen who joins us from the 
Finnish Embassy to the United States, where she is an external 
economics officer. In her current position, she works on Arctic issues, 
focusing specifically on the environmental and energy issues.
    We'll then hear from Admiral Michael McAllister, who is the 
Commander of the 17th Coast Guard District. He is responsible for Coast 
Guard operations throughout Alaska, which include protecting life and 
property, enforcing federal laws and treaties, and preserving living 
marine resources. His knowledge of the U.S. Government's engagement in 
the Arctic will be beneficial to hear.
    Next we have Melanie Bahnke, who joins us from Alaska. Melanie is 
the president and CEO of Kawerak Inc. She is a tribal member of the 
native village of Savoonga and is a passionate advocate for Native 
American rights in Alaska.
    Finally, we will hear from Mark Smith, the CEO of Vitus Energy and 
a third-generation Alaska resident. He began as a deckhand with Smith 
Lighterage in 1973 and eventually purchased the family business in 
1987. Since selling the original company, Mark has been active in 
Alaska's energy and transportation industry. We will conclude with Q&A 
session.
    I'd like now to give the floor to our first panelist, Julie 
Gourley, who will discuss the State Department's outlook on the Arctic 
and our role in the region's development. Julie, the floor is yours.
    Ms. Gourley. Thank you, Paul, for inviting me back to the Helsinki 
Commission. It's nice to be here.
    This is a great topic, and it's a nice time to talk about it a 
little more in-depth now that the United States has passed the Arctic 
Council chairmanship on to Finland, and we have a little more space to 
think and breathe now and think deeper thoughts about the Arctic.
    So about infrastructure, which is a particularly interesting topic 
in that region--a hot topic right now--it's getting a lot of attention 
in the Arctic Ocean, frankly, as everyone in this room probably knows, 
because the ocean is much less frozen than it used to be, and the ice 
that is there is thinner, and it's easier to break with ice-
strengthened ships. So that means there's more stuff going on in the 
Arctic Ocean than in modern human history.
    When any of us would sit around talking about infrastructure, you 
would normally think of roads and bridges and telephone lines, and the 
electricity grid, and pipelines and so forth. And that's stuff we take 
for granted. But the state of infrastructure in the Arctic is very 
different from that, and very much less robust.
    So, for example, with diminishing sea ice, shipping in the Arctic 
Ocean is starting a little bit of an uptick. Which does not mean that 
the Arctic Ocean, which has a couple of very famous shipping routes--
the northern sea route over Russia and the northwest passage over 
Canada--are seeing anywhere near the level of shipping that the rest of 
the world is. But with respect to past shipping patterns, especially in 
the northern sea route, there is quite a bit more activity.
    But there's very little infrastructure in many parts of the 
Arctic--in Alaska, in northern Canada, in the northern Arctic regions 
of Russia and in Greenland--to actually support large-scale commercial 
shipping in the Arctic. For example, there are very few deep-water 
ports. And there's certainly a lot of talk about developing one in 
Alaska, possibly in Nome. I think our Kawerak will probably talk about 
that a little bit more. The main one that is the most familiar to 
people is the one in Murmansk, Russia. And the rest are the bulk of the 
deep-water shipping capacity and port capacity is along the Arctic 
coast in Russia.
    For another thing, highway and railroad infrastructure is sparse in 
those same areas. Now, I'm not talking about the five Nordic countries, 
which are a completely different situation. But certainly in Alaska, 
Canada, and Russia, again, there's not a lot of road or highway or 
railway infrastructure to support deep-water ports, which means that 
there's not really any ability to support commercial-scale container 
shipping. So the shipping that is going up a little bit, certainly a 
lot for the northern sea route but not a lot compared to the rest of 
the world, is mostly bulk shipping--for example, gas hydrates going 
from the Barents Sea around over to China.
    Russia is actively marketing the northern sea route, north of its 
Arctic coastline, as both a shorter route between Europe and Asia, and 
a safer one that's free of piracy and, at least for now, the 
traditional kinds of criminal activity, like human smuggling and arms 
trafficking and drug trafficking, and so forth. Although the number of 
voyages in the northern sea route has actually increased quite a bit in 
the last decade, the shipping activity is still very insignificant 
compared to the Suez Canal or the Panama Canal, which are sort of the 
main shipping lanes that the northern sea route is sometimes compared 
to, and that people are looking to as a model for the future of 
shipping in the northern sea route. But I think people like Caitlyn 
Antrim in the audience know that that's way in the future.
    So the infrastructure situation is quite a bit different in the 
Nordic states, the five Nordic states, where just this week, actually, 
there's been new interest in building an Arctic Corridor Railway that 
would connect Northern Europe with Russia's Arctic deep-water ports, 
and it would eventually connect to the China Belt and Road initiative 
that you may have heard about. But the idea--and maybe Iina will know 
something about this--is that it would connect Rovaniemi, Finland with 
Kirkenes, Norway, a port city on the Barents Sea, and then tie into 
other deep-water ports along the Russian coast, and then eventually tie 
in with China, which would give China much more direct economic ties to 
the Arctic than it has now.
    So with respect to economic development, in recent years there's 
been a lot of focus on that in the Arctic region, again, because the 
sea ice is melting and the permafrost is thawing and things are opening 
up in that part of the world. Things like offshore oil and gas 
development, cruise tourism, deep seabed mining, perhaps commercial 
fishing one day, in addition to deep-water port development and 
commercial shipping, which is why plans like the Arctic Corridor 
Railway are starting to be made.
    Another critical area of infrastructure in the Arctic is intel 
communications, and that's not something people normally think about 
when you think about infrastructure, especially in the Arctic where 
you're immediately thinking about ports and ships and roads. The lack 
of telecommunications infrastructure in the Arctic is why we, in the 
United States, initiated new work in that area in the Arctic Council 
during our recent two-year chairmanship period for the Arctic Council. 
And Finland has taken it over. So it's continuing on these next two 
years under Finnish leadership.
    I'll say just a little bit about that. Many telecom technologies 
are already in use today in southern parts of the Arctic. And those 
kinds of technologies vary based on the user needs. The communications 
over the northernmost part of the Arctic north--way north, way up and 
into and over the ocean--are only possible with limited capabilities, 
such as radio and satellite technologies. But that's kind of all there 
is up there now.
    So as a result, it's important to note that no single technology 
alone will meet all the telecommunications needs in the Arctic. The 
solutions to the connectivity gaps around the Arctic will vary along 
with the needs of the end-user community. And that is exactly what's 
going on right now in the Arctic Council--our two years looked at sort 
of the whole infrastructure picture and the enormous gap that is in the 
Arctic. And now we're looking more at who the end-user community is, 
who the individual end-users might be and what their actual needs are.
    For example, there are fiber optic cables being laid in parts of 
the Arctic. I think people in this room probably have heard about the 
Quintillion Project that's, I think, going from Japan over to England 
and around through the Bering Strait and over the northern part of 
Alaska, which is allowing Alaskans to tap into this fiber optic cable 
and, for the first time ever, be able to have broadband in the northern 
areas, in Barrow, for example. It's pretty exciting. It's a real game 
changer for northern Alaska that fiber is actually now being laid in 
the water and they'll be able to tap into it.
    The purpose of the Quintillion Project is mainly to link the 
financial markets in Europe and Asia through the much shorter route, 
which will--even though it's in milliseconds of time that are saved--
the timeliness of connectivity between the markets is huge for 
financial markets. So that's the main purpose for this cable being 
laid. But of course, it has this added benefit of being able to provide 
a lot more connectivity in the Arctic.
    But as they're installed, opportunities like that will happen. The 
satellite industry is doing the same thing, and looking similarly to 
the Arctic for new constellations. I think the Iridium constellation, 
which is quite old and has been up there for a long time is one of the 
companies that is looking to the Arctic and I believe is also working 
with the IMO on search and rescue capability through satellite 
technology. So there's broadband, and there's satellite all being built 
up on the Arctic now.
    With the increase in shipping traffic, there's also a demand for 
on-board telecommunications services for business needs, such as 
navigation aids and data transfer and vessel tracking. There are also 
customer needs onboard ships, such as for email and internet access. So 
with increasing ship traffic, there will continue to be increasing 
demands, not just for commercial capabilities, but for search and 
rescue backup and support to offshore development activities.
    Search and rescues, in particular, is another area the Arctic 
Council focuses on, and the needs therein. And not only in Coast Guards 
practicing and keeping fresh in how to operate in that environment, but 
also how to take advantage of existing telecommunications, which are 
pretty thin up there, but which will be improving as time goes on and 
as this task force and the Arctic Council continues.
    So I'll stop, but the bottom line is really that economic 
development can't happen in any significant way without supporting 
infrastructure. And that's really why it's one of the very main topics, 
one of the top, top topics being talked about in the Arctic right now. 
And infrastructure itself is a form of economic development. So it sort 
of has this double benefit in the Arctic. And in a region like that in 
the world, where there's very little infrastructure now, of creating 
jobs by its very creation and also creating jobs by being in place and 
supporting other kinds of human activity.
    Thank you.
    Mr. Massaro. Great. Thank you very much, Julie. It's always so 
exciting to hear you speak. I love this idea of an Arctic Corridor 
Railway, especially how it connects with the One Belt One Road 
initiative of China. One of the things I also focus on at the 
commission are the OSCE Asian partners. And all of the Asian partners 
are very concerned, to say the least, about China's project. At least, 
they're paying very close attention to it. And also this idea of the 
milliseconds saved for financial markets. This is the kind of thing 
that really got me into Arctic issues to begin with, is these exciting 
types of projects.
    On another note, I wanted to let everyone know that we are 
expecting Senator Sullivan to drop by at some point and make a few 
remarks. I'd ask that panelists take a short pause when he comes in. 
He's running a very tight schedule and we'd be very excited to have him 
come speak shortly. With that, I'd like to hand it over to Iina.
    Ms. Peltonen. Great. Thank you for the invitation to this event. 
And this is a great opportunity to contribute to this discussion as a 
representative of the current chairmanship of the Arctic Council. I'm 
just so happy that you are keeping the Arctic on the agenda, because we 
think that the Arctic is, nowadays, more important than ever for all of 
us, because what happens in the Arctic doesn't stay in the Arctic, as 
our president says.
    Well, first, I would like to say a couple of words about the 
background of Finland and the Arctic. Well, of course, because Finland 
is located in the Arctic region, the Arctic is obviously an important 
region for us. And it's not only regional issue, but it's a mindset of 
viewing for all of us. And about the Arctic Council, the whole genesis 
of the Arctic Council goes back to Rovaniemi, a city on the Arctic 
Circle in Finland. Almost 30 years ago the first ministerial meeting of 
the Arctic countries, focusing on environmental protection in the 
Arctic led to the Rovaniemi process, and eventually the establishment 
of the Arctic Council 1996.
    Well, in Finland we have been actively working on our national 
Arctic strategy in the past few years. And the key areas in that 
strategy, they are ranging from foreign and the EU policies, Arctic 
know-how and business, of course, sustainable development and 
infrastructure, for instance. Finland is, at the moment, the chair of 
the Arctic Council, but also of the Arctic Economic Council. But I'm 
going to focus on our chairmanship in the Arctic Council.
    Well, now having assumed the chairmanship of the Arctic Council 
from the U.S. in Fairbanks in May, our mindset and minds are even more 
concentrated on the Arctic, more than usual. And we appreciate a lot 
the achievements of the U.S. chairmanship. And we are happy with the 
very smooth transition. And continuity is the key word in the work of 
the Arctic Council. And we would say that a Finish chairmanship is like 
a continuation of the U.S. chairmanship. Of course, not in every 
detail, but in many issues.
    But now we are doing our best to guide the Arctic cooperation 
forward as a region of peace, stability, and constructive cooperation. 
And that spirit is also reflected in the title of our chairmanship 
program: Exploring Common Solutions. And as I said, for us, the Arctic 
is not only a regional issue, but something that is very intimately 
linked with the fundamental questions of global order, common 
challenges and solutions. This is why our chairmanship program also 
refers to two major international milestones of the past years--the 
Paris climate agreement and the Sustainable Development Goals. And they 
form an umbrella under which therefore stated priorities of our 
chairmanship. And now I'm going to tell you a little bit about them, 
one by one.
    First, there's environmental protection. That's our first priority. 
And environmental protection has been the core of Arctic cooperation 
from the very beginning. It is directly reflected in the health of the 
ecosystem and human well being. And if you will allow a clumsy idiom in 
this context, the Arctic is very much like the canary in the coal mine 
of climate change, like an early indicator of where we are headed 
globally. We have, of course, now the current discussion on the Paris 
agreement here in the U.S. But for us Finns, and also the EU, the 
implementation of the Paris agreement remains extremely important. We 
think urgent action on mitigation and adaptation is really needed. And 
all common solutions we are able to find in the Arctic. They really are 
going to be helpful. If I mention one concrete example of this work, 
Finland is currently exploring practical ways to reduce especially 
black carbon emissions.
    And another priority is connectivity. This is directly a 
continuation from the U.S. chairmanship. And the same priorities are 
also in the work of the Arctic Economic Council. And as Julie said, 
well-functioning communication networks and services are a lifeline for 
human activities. And it is also needed for economic development. The 
Arctic is no exception in this. As I said, we continue the Arctic 
Council's work on this and explore ways to enhance the connectivity and 
availability of program services in the Arctic, together with the 
indigenous peoples, local communities, the private sector, and 
researchers. Of course, this includes all technologies, meaning 
satellite connections and cables, for example.
    And our third priority is meteorological cooperation. And this is 
something really under the auspices of the Arctic Council. We think 
improved cooperation in meteorological research, observation and 
services are highly valuable in many sectors, not least in maritime 
transportation and public safety. Getting better data coverage and 
better forecasts will improve our ability to manage climate and water-
related risks and benefit us all. And of course, we work closely with 
the World Meteorological Organization with this. And it will probably 
not hurt that the director-general of WMO is currently a fellow Finn.
    And then our fourth priority is education. And education is 
something we Finns value very highly. It is also an essential building 
block in sustainable development, and also local involvement. We find 
creating fair educational opportunities improve the resilience of local 
communities and the region as a whole. We want to make sure that all 
children in the Arctic have access to and will receive a quality 
education. In this work, we emphasize teachers and their work. 
Therefore, Finland already proposes to strengthen the network of 
educational specialists, in cooperation with the University of the 
Arctic. Developing modern teaching methods will be at the core of this 
effort.
    And in addition, it has something to do also with Julie and you, 
colleagues, when you go to the Arctic Council meetings. I just want to 
mention that Finland also decided to arrange all the Arctic Council 
meetings in an environmentally friendly way. And that means in practice 
that Julie and her colleagues, they don't have any paper meeting 
material, for example. They just have to eat or they also have some 
local food, as much as possible. And there's no unnecessary transport. 
And actually, in Finland these environment-friendly meeting 
arrangements are not so familiar either. So the ministry for foreign 
affairs of Finland and WWF Finland, they developed together guidelines 
for this. And this is something new also for us.
    But in the end, as I said, those four priorities are our themes. 
And if you want to read our chairmanship program, this is also an 
environmental-friendly thing that we don't have paper copies, but you 
can scan the QR code here and download it from the internet. And you 
can find it in Finnish, Swedish, English of course, and Russian, and 
Sami 
language.
    Thank you.
    Mr. Massaro. Thank you very much, Iina. And I too am a huge fan of 
low paper events. I know our communications director is here. Perhaps 
we can try out a barcode thing in the Helsinki Commission in the 
future. It's very exciting technology. Well, thank you so much for 
going through your priorities, Finland's priorities, for the Arctic 
Council chairmanship. And very happy to hear that we have so much in 
common. Should be an exciting chairmanship.
    Admiral McAllister, the floor is yours. Thank you.
    Adm. McAllister. All right. Well, good afternoon, everybody. I'm 
going to talk a little bit on infrastructure needs from the perspective 
of the U.S. Coast Guard and how we work in the international or global 
environment to address civil Coast Guard-related missions, given 
infrastructure constraints.
    So just as a quick introduction, I'm honored to lead about 2,500 
Coast Guard men and women in Alaska that work in the U.S. Arctic 
providing safety and security and environmental protection, of what we 
call stewardship operations, really around the clock, every day of the 
year.
    And I'm going to continue this theme of discussion about 
infrastructure, but I'm going to stretch the definition a little bit, 
because when I looked it up in Dictionary.com the definition I got was 
underlying foundation or basic framework as of a system or 
organization. That's pretty broad. But it gives me an opportunity to 
talk about things beyond just traditional physical infrastructure and 
public works. So I'm going to talk a little bit about things like 
informational infrastructure, mobile infrastructure, shared and 
collective infrastructure, and governance and policy as infrastructure 
concerns. To try to keep it within bounds, I'm going to talk 
specifically about infrastructure as it relates to increased maritime 
traffic, which Julie described in her remarks.
    Let me start with the strategic perspective a little bit. There 
have actually been a lot of strategic-level studies that list 
infrastructure needs, things like the White House's national strategy 
for the Arctic region. The Committee on Maritime Transportation and 
Security did a 10-year prioritization of infrastructure, which was a 
very good work. The Coast Guard has its own Arctic strategy, which 
lists infrastructure needs that are relevant to an organization like 
the Coast Guard. And then the Council on Foreign Relations put out a 
bit recently on Arctic imperatives reinforcing U.S. strategy on 
America's fourth coast, which talks a lot about infrastructure needs as 
well. So this is not necessarily a new body of work. We've been 
thinking about these things for a long period of time.
    And there's some commonality amongst all these different strategic 
works, things like deep water or safe harbors, search and rescue 
capabilities, oil spill capabilities, communications, what we call 
maritime domain awareness, navigation and bottom mapping or 
hydrography. But if you put all together, it's a very long list of 
national needs. And it will come at great national expense. So it's 
important for us to prioritize, to identify what needs to be done first 
in order to provide for safe and secure uses of the Arctic. I was at an 
event recently, and I believe it was Senator King from Maine who said, 
this is necessary work as the Bering Strait--you know, that is the 
narrow waterway between Alaska and Russia--becomes one of the most 
strategic places on Earth with the increasing traffic through the 
northern sea route and northwest passage. I think it'll be many years 
before we see that come to fruition, but certainly the trends are all 
in that direction.
    So what are our infrastructure needs in the U.S.? What should our 
priorities be? And how do we work across nations to get there? I'm 
going to provide you my thoughts as an operator, a practitioner, using 
the Coast Guard's Arctic strategy framework.
    The first thing that we need and are working on trying to get is 
informational infrastructure. And primarily from a Coast Guard 
perspective, that's what we call maritime domain awareness, knowing 
what's going on out there. And our general model for gaining and using 
maritime domain awareness is we collect it, we fuse it, we analyze it, 
and we disseminate it. And there are shortfalls, really, in all of 
those.
    Julie has already mentioned things like satellite shortfalls. And 
there's some great work being done out there, both on the government 
side and on the commercial side, to put additional satellite capability 
into polar orbits. And you know, just as an example, we, the Coast 
Guard, are now working through our Department of Homeland Security to 
put small satellites into space to help improve the detection of 
emergency position indicators for search and rescue, as an example. And 
so it's an exciting world ahead, but there's very little capability 
there today. About 4.7 percent of the U.S. Arctic bottom--the ocean 
bottom--is mapped to today's standards. And so the National Oceanic and 
Atmospheric Association [NOAA] is using all of its resources, along 
with Coast Guard resources, commercial resources, to try to get them on 
a path where they can do accurate mapping for more of the U.S. Arctic.
    As Iina said, environmental sensors are a big issue for us. Just as 
a kind of a data point, the weather and ice forecasts that we get in 
the U.S. Arctic typically are good for about two to three days, whereas 
in the lower 48, Washington, D.C. as an example, they're accurate for 
about five to seven days. Just the lack of sensors in the region makes 
it more difficult for us. And I would certainly tell you that weather 
is more important in the U.S. Arctic, where everybody attempts to work 
around the weather constraints in order to operate.
    Vessel tracking: We use automated identification systems, but those 
only apply to large vessels, so we can't necessarily track well small 
vessels. And that's a gap that we need to fix in our maritime domain 
awareness. And then there's human sensors as well, trying to gain the 
traditional knowledge of members of coastal communities and include 
that in our work. We need to be able to fuse that through some sort of 
common operating picture. And we need decision support tools in order 
to take all this information--a vast amount of information--and make 
good decisions from it.
    But it doesn't end with decision making at a government level. We 
need to be able to disseminate that information and tailor it to 
individual users. And I think Iina had mentioned that as well. You 
know, I can share it with Coast Guard ships, but it really needs to be 
shared with commercial fishermen. It needs to be shared with masters of 
vessels who are on long voyage routes. It needs to be shared with 
subsistence hunters so that they can use this information in a way that 
helps them perform their missions, their duties, their activities in a 
safe and secure manner. I'll argue that governance is an important part 
of infrastructure as well. There's been some progress made on 
commercial vessel safety, as an example, with the release of the polar 
code recently. And frankly, we already work pretty well across nations 
to harmonize some different rulesets that we have.
    So as an example, when the cruise ship Crystal Serenity, which was 
the first really large cruise ship to go through the northwest pass, 
first proposed their route, we worked side-by-side with the Canadian 
Coast Guard and with Transport Canada, their equivalents to the U.S. 
Coast Guard--to ensure that the rules that we were going to apply to 
ensure that that ship made that transit safely were harmonized between 
the two countries. And at the end of the day, it was frankly Canada 
that had the more conservative or more stringent requirements that led 
to all of the safety features--or many of the safety features that the 
Crystal Serenity put in place in order to ensure that that inaugural 
cruise was going to be as safe as it possibly could be. So that's how 
we work across governments to take the highest level of safety and 
security that we can manage together.
    We're doing a variety of other things. I know Melanie is probably 
aware of this, as is Mark, but we're trying to manage our waterways in 
a smart manner as well, because only a small percentage of waterways 
are mapped accurately. For example, we recently set up a safe transit 
route through the Bering Sea, the Bering Strait, and into the Chukchi 
Sea. It's a route that has been surveyed. And we told folks: If you 
stay inside this route you can be assured that you will have good, safe 
water, and that you are avoiding conflicts with subsistence activities, 
with migrating marine mammals, as an example. And so it's a route that 
addresses many different concerns in the best possible way. We're about 
to present that through the International Maritime Organization for 
their consideration, and then it will become a global set of 
recommendations.
    There was some mention of fisheries. Actually, there is viable 
commercial fishing going on in the U.S. Arctic. It's actually at the 
state level. Salmon is a commercial fishing--it was exempt from that 
particular moratorium. But it just demonstrates how commercial fishing 
is a sustainable activity in the Arctic. And so we need to bring the 
right governance structures to ensure that that can be managed in a 
sustainable way.
    It's good to have good governance, to have good policies, but you 
also need effective presence. And this is where the kind of traditional 
infrastructure and hardware comes in. We in the Coast Guard use a 
mobile infrastructure approach. We send ships, we send aircraft, we 
send people during open water seasons into the Arctic to ensure that we 
have a good presence. They are providing the nation's sovereign 
presence. They're visible and they're out there and they have law 
enforcement capability, they have defense capability. And they're the 
United States flag in our exclusive economic zone, on our extended 
continental shelf and our territorial seas.
    With the recent discussion on ice breakers and recapitalization of 
ice breakers, those ships will allow us to conduct Coast Guard missions 
throughout the year in any ice conditions. So that's an important 
capability for us to have. Unmanned systems are being tested and offer 
great promise as well. And then there's the supporting infrastructure. 
Communications was something that Julie mentioned. The ability to stage 
and receive ships, even if it's on an emergency basis, speaks to the 
need for ports. Don't necessarily need to be transshipment ports, but 
they need to provide some level of services.
    And then let me finish up with partnerships. And Iina mentioned 
this as constructive cooperation. And for the Coast Guard, partnerships 
are important. We need to be able to pool our resources to respond to 
significant events. So as an example, recently we conducted an exercise 
called Arctic Chinook. It was done under the Arctic Council Search and 
Rescue Agreement. And it focused on a cruise ship incident where the 
cruise ship was many hundreds of miles from the nearest hub city. And 
it involved transporting people from the water to shore, taking care of 
them on shore, moving them to a hub community where they could get some 
level of first aid, and then onward movement to a metropolitan area 
where hospitals would be able to get the advanced aid.
    One of the capabilities that we demonstrated there was something 
called an Arctic Sustainment Package. Again, in a remote area you might 
not have landing strips. You might not have anybody there. The 
Department of Defense dropped tents, pararescuemen with EMT or first 
aid capability, vehicles, on the beach. And they were able to provide 
the first level of care for people who were in an exercise term, 
injured during this particular event. Canada has these Arctic packages. 
The U.S. has some of them. And really, if there's a cruise ship event 
out there, we're going to need all of them working together. And so it 
was actually a pleasure to have the Canadian Air Force participate in 
that exercise with us. We had observers from Russia. I believe we had 
some from Finland, Norway, and, of course, Canada.
    And I would be remiss if I didn't say an important part of our 
partnerships is about tribal engagement. Anything that we do in terms 
of infrastructure needs to be respectful of our tribal interests. And, 
as Julie had said, it needs to provide an opportunity for sustainable 
economic development from a local perspective as well.
    In closing, I'll offer that infrastructure is necessary. We do need 
to think more broadly about it. It's not just about the public works. 
And we need to establish this infrastructure, particularly for maritime 
safety, security, and environmental protection, in advance of need. And 
that may be hard. That's a catch-22 because a lot of people are 
reluctant to do it until they see the traffic. So the catch-22 is the 
traffic--it needs to precede the traffic. And that partnerships will 
remain critical to our achieving our collective goals.
    Thanks very much.
    Mr. Massaro. Well, thank you very much, Admiral McAllister. I 
particularly like you quoting Senator King. It's for those reasons, the 
Bering Strait becoming the most strategic area in the world, things 
like that, that the commission staff felt it necessary to hold a 
briefing like this. It seems like this issue is emerging very, very 
quickly. And in fact, although you say--and I completely agree--that we 
need to establish this sort of thing in advance of need, we're already 
behind in many aspects on what is needed.
    So with that said, I'd like to turn it over to Melanie Bahnke. 
Thanks so much, Melanie.
    Ms. Bahnke. Thank you, Paul.
    Distinguished leaders and guests, thank you for the opportunity to 
join you today. It is an honor to share our people's infrastructure 
priorities in the Arctic. I am Melanie Bahnke, originally from St. 
Lawrence Island, located in the center of the Bering Strait, where you 
really can see Russia from our houses. I serve as a president and CEO 
of Kawerak, a consortium of 20 Federally recognized tribes representing 
our region's 15 communities. Kawerak has twice convened leaders from 
our communities to identify priorities related to a changing climate 
and the increase of shipping through the Bering Strait. That input is 
what informs my testimony today.
    The U.S. is an Arctic nation. And for us, the Arctic is our 
homeland. The ocean's abundance of marine life has sustained our 
communities for thousands of years, and we intend to be here for the 
next 10,000 years and beyond. We are witness to one of the largest 
marine mammal migrations on Earth. The well-being of our communities as 
we live our native ways of life is entirely dependent on our marine 
ecosystem. Change for us is constant. The impacts of colonization have 
had lasting impacts on our communities. The reality of our climate and 
ecosystem changing and increased shipping in the Arctic adds another 
layer of urgency to ensure that we native people do not become an 
endangered species.
    For the U.S. to ensure that our value system as a nation and the 
rule of law drive the future of the Arctic, it is imperative for the 
U.S. to prioritize and prepare for engagement with the people of the 
Arctic in a very real and meaningful way. I would like to remind this 
commission of the U.S.'s special relationship with its indigenous 
communities, as defined by our history as a nation and the body of 
Federal Indian law that makes up our relationship as Federally 
recognized Indian tribes. It is the responsibility of our leaders in 
Washington honor and uphold that government-to-government relationship 
that we share.
    With that in mind, I have several recommendations and thoughts for 
your consideration. Number one is basic human needs. Our hearts go out 
to the states and the territory of Puerto Rico whose communities were 
devastated by natural disasters. We all understand the Federal 
Government's role in repairing infrastructure when this occurs. This 
same level of responsibility exists for government to bring 
infrastructure to areas of the U.S. in places where it is nonexistent. 
Some of our communities are, just like people in Puerto Rico, obtaining 
drinking water from streams. Many indigenous communities in the Arctic 
still lack the most basic infrastructure that is enjoyed throughout the 
rest of the U.S., namely water and sewer and adequate housing stock.
    I would like to express appreciation to the agenda that Finland has 
outlined as it takes over chairmanship of the Arctic Council. The focus 
on the implementation of the Polar Code, as well as the well being of 
our Arctic communities in the areas of health, water, energy, and 
infrastructure is good news to us. Let me shed some light on the very 
real human issues with the lack of community infrastructure that we 
face in our region. The population in the Bering Strait region is 
roughly 10,000, with continued growth at 10 to 20 percent every decade. 
Over 20 percent of the homes in the region are overcrowded, with 
multiple generations or multiple families living under one roof. Some 
families sleep in shifts due to the limited floor space and overcrowded 
homes.
    Too many homes are dilapidated, substandard and unfit for the 
Arctic environment. My home community of Savoonga faces the highest 
overcrowding rates of any census area in Alaska, 61 percent. These are 
statistics that we are not proud to share, because for us these are not 
statistics. They are our family members and extended family. Five 
communities in the Bering Strait region remain unconnected to running 
water and sewer. One in three infants require hospitalization in 
communities without running water and sewer. As a developed nation in 
the world, this reality in the United States Arctic is, for us, 
unacceptable. It is where the rubber meets the road.
    President Trump has zeroed out funding to address what we call a 
silent sanitation crisis in rural Alaska. We have requested a 
congressional hearing to examine water and sewer regulatory issues 
through the Alaska Federation of Natives, and look forward to working 
with members of our delegation on that front. We also look forward to 
engaging in knowledge sharing across the Arctic to address our common 
challenges.
    Number two, erosion, natural disaster preparedness mitigation and 
response. The Governor of Alaska has on more than one occasion declared 
disasters in our region due to extreme weather events. The lack of 
shore ice protection, compounded by changes in the weather that brings 
extreme winds, is resulting in erosion of our coastal communities. Five 
communities in our region are listed as being in imminent danger. 
Infrastructure is needed to protect these communities from literally 
falling into the sea. Disaster preparedness mitigation and response 
mechanisms are needed. And this requires investments in infrastructure. 
For some communities, relocation is the only option.
    Number three, oil spill preparedness and response. While I would 
like to commend the Arctic Council's work on oil spill preparedness and 
response, we remain very concerned at the community level that we have 
yet to prepare and train for such an event. Commandant Zukunft of the 
United States Coast Guard clearly expressed at an Arctic naval 
conference this summer that it would be impossible to recover from an 
oil spill in the Arctic environment. His words are very concerning to 
us, and we appreciate his honesty, as we are aware that oil exploration 
will continue under Russian waters and as the Trump Administration 
explores opening U.S. offshore exploration.
    Our communities are on the frontlines. And in the event of an 
accident happening--whether it's a shipping accident from a tanker 
transporting petroleum materials or the risks that may occur with 
exploration--we urge the United States to make an investment in 
preparing our communities to respond. During the Cold War, the Alaska 
Territorial Guard served as the eyes and ears of the United States, 
ready to serve when asked. Men from our rural communities in Alaska 
continue to serve in the U.S. military at higher rates than any other 
ethnicity in America.
    I would like to suggest the establishment of an Arctic Territorial 
Guard that perhaps is embedded with the U.S. Coast Guard with a 
specific mission to ensure ship to shore communications occurs and that 
our local community members are training and prepared for oil spills 
and other disaster response. We can no longer be in a position just 
hoping nothing goes wrong, given the nearest Coast Guard assets are 
several thousand miles away. We need an ongoing commitment to work with 
and ensure that we're prepared at the community level.
    Number four, transportation systems. The Arctic is in need of a 
deep-draft port and harbor system. The increased shipping through the 
Bering Strait is a reality, not just a projection. We lack a deep-draft 
port that has been developed. Our communities are accessible only by 
small aircraft and summer barges. We lack a ferry system. The U.S. used 
to provide a barge, the North Star, to provide basic necessities to 
rural Arctic communities. A supplement to the Bypass mail system is 
needed to provide equity in the cost of living and doing business for 
Arctic communities, one that takes into consideration reducing the cost 
of shipping heating oil, gasoline, and building materials, for example. 
Intermodal transportation systems must be funded.
    Number five, hunter safety and access. Among our primary concerns 
with an increased presence of commercial traffic through the strait is 
the safety of our hunters, as well as the safety of our marine mammals. 
While the Coast Guard and NOAA have identified necessary improvements 
that the U.S. must take, it is imperative that these systems are funded 
and developed to facilitate real-time communication between vessels, 
our communities, and hunters. Internet connectivity will be enhanced 
with the upcoming Quintillion fiber optic cable implementation through 
the Bering Strait region. But current plans only include connecting a 
few hub communities, such as Nome. Our other coastal communities are in 
need of enhancement to allow connectivity with the rest of the globe.
    Ship-to-shore communication infrastructure from the Bering Strait 
to the Canadian border is needed. An investment in our local 
communities to provide information to passing traffic on ice and for 
information sharing between hunters and larger vessels is needed. The 
use of drones, managed by our communities, can inform both communities 
and ship traffic to reduce the potential of conflicts. Ultimately, we 
must continue to work with the shipping industry, with regulators and 
our Russian neighbors to establish marine mammal avoidance protocol 
during the fall and spring migrations. Kawerak has published 
subsistence-use maps as a first step. However, additional research is 
needed to develop baseline information about the natural resources in 
the Arctic. We recommend establishing an Arctic research facility 
located in the Bering Strait region so that development in the Arctic 
is informed by science and local knowledge.
    Number six, economic development opportunities. The increased 
shipping in the Arctic brings with it the opportunities for economic 
development. Our rich natural resources and culture can provide a 
window to jobs and a path out of poverty. As people who bear the most 
risk, our people should also stand to benefit from economic development 
opportunities in the Arctic. Government can help by providing the 
startup resources and technical expertise to facilitate sustainable 
development opportunities, including tribal enterprises that create eco 
tourism facilities and other economic development opportunities. The 
cruise ship Crystal Serenity has twice voyaged through the Arctic. Our 
tribes could benefit from a hand up, not a hand out, to boost economic 
development in this poverty-stricken region. We want to be participants 
in the global economy, but this will require investment by both the 
public and private sectors.
    In closing, while the Bering Strait is considered an international 
strait, which all ships and aircraft enjoy the right of transit passage 
which shall not be impeded, the region is our homeland where Inupiat, 
Siberian Yupik and Central Yupik communities have lived for thousands 
of years. We inherently have the right to live our way of life and urge 
that this shall not be impeded. President Trump revoked President 
Obama's executive order, 13754, that provided for a level of protection 
and formalizing engagement with our communities in the Bering Strait on 
the issues of natural resources protection, erosion, and preparing for 
increased shipping and the need for infrastructure in our remote 
communities. We urge this Congress to take action, restoring Executive 
Order 13754. And if this is not possible, at least be informed by our 
work on the order as you prepare for policymaking in the Arctic region.
    The Arctic is our homeland. In the Bering Strait, the U.S. and 
Russia are neighbors. We are family, separated by national borders and 
the international dateline. It is my hope that leaders of the Arctic 
nations that define the boundaries of the Arctic remember that. We are 
communities that neighbor each other in an extreme environment. And if 
Arctic infrastructure is to be responsibly developed, it will take 
partnerships internationally and locally. The First People of the 
Arctic must be afforded participation in this process.
    Thank you, again, for the opportunity to share infrastructure 
priorities from the perspective of indigenous people whose homeland is 
the Arctic. [Speaks in a native language.]
    Mr. Massaro. Well, thank you very much, Melanie, for coming all the 
way here from Alaska today and for a very real picture of what's going 
on in these Arctic communities.
    I'd like now to hand the floor of to Mark.
    Mr. Smith. Thank you so much. Glad to be here. I'd like to have 
some good provocative discussion here in the Q&A, so I'm going to rush 
through my points because here at the tail end a lot of folks have 
touched on the points that were also in my remarks.
    Just a brief background; my great uncle was in the original gold 
rush, and from there, followed the economy down to the red gold in 
Bristol Bay, and was part of the salmon industry. And that's where I 
grew up, in the family homestead in Bristol Bay, part of a tug and 
barge company that really got its start in the fisheries business, and 
then as the Federal Government and the Bureau of Indian Affairs 
specifically started investing in basic schools and other village 
services, the U.S. Post Office came in, that was the origin of the 
family company. So a lot of the transportation businesses that got 
started really were through a Federal infrastructure investment.
    So from the private sector, you know, my punch line and my remarks 
will basically be driven down to the fact that as a pioneer state we 
really look to the Federal Government to help us provide a lot of the 
basic infrastructure that provides safety and economy. And that economy 
is with better ports and with sharing infrastructure development that 
is done on a sustainable and local business.
    Just starting off with some of the needs, the Arctic does need 
basic shipping services, as relates specifically to the private sector 
and international shipping. There is very little that we see coming 
across the northern route and the northwest passage that has anyplace 
to stop. Even the Crystal Serenity that you mentioned does not have a 
port it can go to. It has to anchor offshore. So if there is any true 
trouble or any needs for repairs or anything in an emergency basis, 
that ship actually has nowhere to go. Literally, once it gets up to 
Barrow it's 1,000 miles from the nearest place where it can tie to a 
dock. So that's sobering, as I think everyone looks at the 
international aspect of shipping.
    From a more local level, my company serves the communities that 
Melanie was referencing. And it is, it's--I'm going to say--a third-
world situation, where there are no improvements. We literally hit the 
beach with tank barges to offload fuel and other vitals. And I'm sure 
that Admiral McAllister knows that if you talk to anyone in the 
civilized world about running a tank barge ashore, they'll scream and 
say how that can be. But in Alaska, that's a necessity. And we have to 
build and accommodate, and we have to watch the weather, and we have to 
have very specific local knowledge in our captains to be able to do 
that safely.
    Another point is that just as far as seeing any other repair 
services for us, again, we're literally 1,000 miles. So if we have a 
major repair that we need to do to any of our vessels, it is about a 
20-day round trip out of the arena. So we're looking for the Federal 
Government to possibly put in a major port where we can get a cluster 
of services that will ultimately reduce our costs of operating in the 
environment and reduce, in turn, the cost that the villagers in the 
Bering Sea area have to pay for such services.
    The second topic I wanted to touch on is how these projects happen. 
And typically, in contracting, a project will be put out and bidders 
will bid on it, and we'll have what we would call an outside 
contracting firm come in, provide the infrastructure, bring in all of 
the parts, the pieces and the labor to do that infrastructure, and then 
leave. And ultimately, that's probably the most cost-effective way of 
doing infrastructure development, but it's probably not the best way 
for Alaska, because we want to include those people that provide 
services on a local level to participate at a higher level. So if we 
can do infrastructure development in more of a slow-motion and 
ultimately get to the point where we have a satisfactory product, it 
will have a much more impactful benefit on the local level than we do 
when we go through traditional contracting routes.
    This ties into the second point I have as far as being sustainable. 
And as a private sector individual, I want to see healthy communities, 
communities that have growth, communities that have hope, and where 
investment is made. And again, that only is going to happen if we have 
improvements in infrastructure--even maintenance of infrastructure that 
has been put in historically and yet still needs improvement.
    This is also part of the oil and gas experience. We saw Shell come 
in and put nearly $7 billion into northwest Alaska. And the truth is, 
my company literally didn't see a dollar of that and that's, to me, 
quite remarkable because everything that happened with Shell that came 
in, and that tremendous amount invested, as Melanie mentioned, there's 
10,000 people in the Bering Straits area, how many people, again, 
didn't see a dollar of that development. I think that there is a 
variety of things that we can do as a government that can help make 
sure that when we do have infrastructure development, that we do have 
resource extraction, that there's some way for more benefit to the 
local communities.
    A final point--again, mainly addressed to the Polar Code and the 
other vessels that will transit our area and our Arctic--we need 
infrastructure to just comply with the Polar Code. A couple of the 
items that are notable is just making sure that there's no waste 
discharged overboard in the Arctic, that we have a place to pump slop 
tanks--again, things that are usual for port services in the civilized 
or developed world are not available in Alaska. So we see vessels that 
come into port and they have an expectation of what those port services 
are and they just literally don't exist.
    One of the things that both public, private, state and 
municipalities can do is to start developing those basic 
infrastructures that allow vessels transiting there to comply with some 
of the regulations that are currently being adopted for the Arctic.
    A final note on charting. I appreciate the admiral hitting on 
charting. I love to get on a soapbox and talk about NOAA. NOAA does a 
good job of doing very high-definition charting, but what they tend to 
avoid is actually the most critical part of Alaska navigation, and that 
is the transit between the ocean and the coastal communities. So we 
have good ocean charting, but very poor charting at the interface 
between the coast and the ocean. So river entrances, those areas where 
we need to transit, where we need good data when we deliver fuel to 
Savoonga, for example, we need to get as close as we possibly can to 
literally float hose across the surf line and into the community. And 
those are the areas that NOAA tends to avoid. They have actually said 
they don't care about anything less than 4 meters in depth. And my 
response is, I don't care about anything greater than 4 meters of depth 
because we operate shallow-draft equipment.
    There's a lot of things that we would like to communicate from 
Alaska to the folks here in Washington and others that make decisions 
about how money gets spent and what it's focused on in Alaska. I, 
again, look forward to questions.
    Thank you.
    Mr. Massaro. Well, thank you so much, Mark.
    And Mark and Melanie, thanks a lot for bringing a local perspective 
in here. Obviously, the Helsinki Commission generally sees things from 
a foreign policy direction and that's the impetus for me behind this as 
a foreign policy guy. But I think one thing that I definitely got out 
of both of your testimonies is that the foreign policy and the domestic 
policy are very much intertwined in this case in a huge way in that 
Bering Strait area.
    With that in mind, let's enter that robust Q&A question that you 
talked about, Mark. Let me begin with a question and then we'll open it 
to the audience. That question is about something that has been 
mentioned by all of you as sort of a side entity and something, of 
course, that is very central to the commission's work, and that is the 
Russian Federation and their investment in the Arctic.
    I guess we all know, from a Coast Guard perspective, that Russia 
has an enormous fleet of icebreakers. We know about the Northern Sea 
Route Administration which escorts vessels in that area, sometimes 
without really giving them a choice, and all sorts of other stuff. 
They've made major investment in that area. And I was wondering, and 
maybe let's start with Julia and anybody else that would like to 
comment on this--what implications does that have for U.S. 
infrastructure development in the Arctic and for the infrastructure 
development in the Arctic of other Arctic nations?
    Ms. Gourley. Well, that's a good question, Paul. I can't help but 
think that the more activity is happening in Russia, the more it will 
sort of incentivize the other Arctic coastal states to invest in the 
region, too.
    But it's not always, I guess, clear, so Russia puts out its 
intentions and how far it's actually going to be able to go. I mean, 
investing in the Arctic is extremely expensive and the Russian economy 
is not as great as it once was. So there are great intentions and great 
plans, but I guess we'll see how far Russia can actually go with it. 
They certainly do have a much larger icebreaker fleet than we do. And 
Admiral McAllister knows that better than anyone.
     I think it's probably a good thing on the economic development 
side that Russia is investing a lot and it'll probably end up helping 
the other countries along and sort of moving the ball forward. But on 
other fronts, geopolitically speaking and militarily speaking, I 
wouldn't even venture a guess.
    Admiral McAllister may be able to speak to that more.
    Mr. Massaro. Iina, would you like to say anything to that? We'll 
just move down the line. You can so no, by the way. [Laughter.]
    Ms. Peltonen. I'm not going to say no.
    Mr. Massaro. That's what I like to hear.
    Ms. Peltonen. As you know, Finland is located next to Russia.
    Mr. Massaro. Right.
    Ms. Peltonen. And we are used to living with our neighbors the last 
more than 70 years also peacefully, and hopefully the next years are 
going to be even more peaceful. Well, we are seeing that any economic 
investments in the Arctic areas in Russia are, of course, very good 
investments. And as Julia said, it is very expensive and we all know 
the Russian economy is not in the best position at the moment. And the 
Arctic Council is still doing some projects in Russia because the 
infrastructure in the Arctic areas in Russia, they are quite old and 
they are also not so environmentally friendly. So we are not worried.
    Mr. Massaro. Well, if Finland is not worried, then it must not be 
that big of a problem.
    Ms. Peltonen. Yes, we are absolutely going to continue our 
constructive cooperation in the Arctic Council with Russians because 
while the Arctic Council has been the international forum where all the 
Arctic states have done very constructive cooperation all these 21 
years now. And we are going to continue, hopefully continue and try to 
explore solutions to continue that cooperation.
    Mr. Massaro. Fantastic.
    Admiral McAllister, would you like to comment?
    Adm. McAllister. Russia has actually been making investments in a 
variety of different areas that are of interest to us. As an example, 
they've been investing in LNG ships that are ice class, capable of 
moving LNG year-round in any ice condition. And they've obviously been 
investing in military capabilities. They've already got an extensive 
ice breaking fleet and they're expanding that fleet. They've been 
investing in research. We see research vessels not only from Russia, 
but from a variety of countries that are in the Arctic. Many of those 
the Department of State permits because they cooperate and research to 
do work in the U.S. exclusive economic zone.
    We should look at this activity for its opportunities, not 
necessarily any threats that it might pose. As an example, with the 
increasing Arctic traffic of all types, the Coast Guard recently 
reached out to our Russian counterparts in the Marine Rescue Service 
that does oil spill response and we asked them if they'd like to update 
the 1990 agreement that we have between the United States and Russia 
called our Joint Contingency Plan, and they jumped at the opportunity, 
said yes, we should update it and we should exercise it. And so we're 
on a track to be able to exercise that. It's a bilateral agreement 
between the United States and Russia, because as more traffic moves 
through, whether it's on the Russian side or the U.S. side, the oil 
doesn't care. If spilled, it's going to end up in both our nation's 
waters and we need to be able to work cooperatively to both prevent 
that from happening in the first place, and if it does happen to be 
able to respond.
    So we look at a lot of the things that are happening there as 
opportunities to leverage the cooperative relationship we have with 
Russia and many of our civil missions.
    Mr. Massaro. Great, thanks so much.
    Melanie, would you like to say anything to that?
    Ms. Bahnke. From an Alaska Native perspective, where we're totally 
reliant on our marine mammals, the marine mammals and the currents also 
don't care about our geopolitical boundaries. And we need to find the 
balance between development with disregard to the environment versus 
locking everything up.
    And on the U.S. side, we might develop all of these wonderful 
regulations to protect our environment, but we have no control over 
what's happening on the Russian side. And so as tensions between the 
United States and Russia heighten, we're concerned that opportunities 
for cooperation become diminished. We saw an international Search and 
Rescue Agreement developed. With the U.S.'s withdrawal from the Paris 
agreement, it's concerning because we're unsure of how we're going to 
make sure that the marine mammals that cross the geopolitical 
boundaries are protected, the natural resources are protected, but also 
that we develop responsibly.
    I think joint investment in infrastructure in the Arctic by the 
Arctic nations is an avenue that should be explored. We talk about how 
many icebreakers Russia has like we have to make sure that we're 
competing with them, but why not cooperate in the shared use of these 
icebreakers, for example? I think that's an avenue where there's 
potential for the Arctic nations to come together and talk about co-
investment in infrastructure in the Arctic.
    Mr. Massaro. Thank you.
    Mark, you got anything for that?
    Mr. Smith. I do. But again, not to spend too much time, I have the 
pleasure actually of leasing a couple of Russian tankers, of bunkering 
in the Russian Far East. And I have to say that my dealings with the 
Russian companies have been very straightforward. And as we look right 
across, and I'm delighted to hear Melanie's perspective as well, there 
literally are divided families. The Bering Sea is actually a community, 
and if it wouldn't have been for the Cold War, I'm sure we'd be much 
closer. I'd love to see more open trade with our folks and much more 
open communication.
    We have an entire market there where we do much of the same thing. 
The Russians actually do a few things better perhaps than we do in 
serving some of their ports. They certainly are more supportive with 
their icebreaker fleet. So I'll just echo there that there is a reason 
behind some of the icebreaker fleet along with the fact there's a very 
material part of our entire energy reserves that are above the Arctic 
Circle. And as we continue to consume petroleum over the decades, we're 
certainly going to see a lot more development and ice breaking and 
Arctic experience are going to play heavily in that.
    Mr. Massaro. Yes, go ahead, Admiral.
    Adm. McAllister. I did want to add in, I think all of us have 
talked about the Arctic as a place of cooperation, and I certainly 
think that's true. I will tell you, from a regional Coast Guard 
perspective, I actually meet with my Russian counterparts routinely on 
fisheries management, particularly high-seas illegal fishing, oil spill 
response, search and rescue--the Arctic Council sponsored an exercise, 
Russia participated in that as well--and on managing our waterways, as 
Melanie mentioned. The submission that we'll have to the International 
Maritime Organization on our waterways suggestions may actually be 
jointly sponsored by the United States and Russia. So there's actually 
good cooperation.
    But with the global political situation as it is, the U.S. needs to 
be able to protect its sovereign rights. I think that's where this 
icebreaker issue comes in; you can't protect your sovereign rights 
during an era of cooperation or an era of conflict if you don't have 
access to the region, and icebreakers provide you that access. And 
whether that access is for civil missions or defense missions or 
research or some other future need, it provides you the critical access 
that the mission needs.
    Mr. Massaro. Thank you.
    Oh, Iina.
    Ms. Peltonen. Well, now I'm speaking as a representative of 
Finland, not a representative of the chairmanship of the Arctic 
Council, but we are taking all these arctic issues very seriously. And 
we have actually a couple of solutions with the icebreakers. 
[Laughter.] I just want to mention we need this LNG-powered icebreaker 
in two years. It costs $150 million. And we are ready to cooperate with 
the U.S.
    Mr. Massaro. Is this a sales pitch? [Laughter.] Right here before 
your eyes! Great, great, well, thank you so much, Iina.
    Questions?
    Go ahead, please.
    Questioner. My name is Caitlyn Antrim. I'm with the Rule of Law 
Committee for the Ocean, and I got interested in the Arctic because we 
wanted to know who owns what and who has to negotiate with who.
     I've had a particular interest in the Russian development of their 
Arctic bases. I'm not talking from a security perspective, but being 
able to put 125 people throughout the winter in a place where they 
aren't crowded together, where they can actually live an isolated but 
normal life, whether something like that could provide a needed 
presence on the Arctic coast, provide service for helicopters if 
they're needed, a staging area for emergencies, public health, other 
government services, and a place for situs from NSF projects. I haven't 
heard anything of that concept being discussed in the United States, 
but looking at what Russia did makes me think maybe we should.
    And I'd like to hear more about that possibility from an American 
infrastructure point of view, starting as a government operation, but 
it might expand far beyond that. It's a long way from Anchorage to the 
north coast of Alaska and only takes a little bad weather to keep you 
from being able to get there. I'd like to see if you've heard any talk 
of that, if you think it's a good idea, bad idea, too expensive?
    Mr. Massaro. Anyone you'd like to direct your question to?
    Questioner. Potentially the admiral and Melanie, because I see some 
of the opportunities for some of the things you raised by having a 
presence there.
    Mr. Massaro. Great.
    Let's go ahead and start with Admiral McAllister then. Thank you.
    Adm. McAllister. We actually run an annual Arctic operation called 
Arctic Shields. We've been running that for about eight years now, 
where I press forward helicopters and ships and people on land to be 
able to carry out Coast Guard missions when there's open water or ice-
congested, but not totally ice-covered water. We actually have a fair 
amount of experience doing that. As an example this last summer, I put 
about 25 people and 2 helicopters in Kotzebue and they conduct search 
and rescue missions throughout the region.
    We haven't necessarily found the need to be there during the winter 
when the ice prevents movement on the water. So from a Coast Guard 
perspective, maybe that's a future need, but it's not necessarily a 
current need. But what you describe is certainly possible. In fact, 
industry is doing it right now. If you went up to Prudhoe Bay, 
Deadhorse, that's an industry-led, year-round operation which we could 
draw a lot of lessons from in terms of how to have the appropriate 
infrastructure for future operations that demand it.
    Mr. Massaro. Melanie?
    Ms. Bahnke. Not too sure I really understood what you were saying 
is happening over in Russia other than that they've put in place a 
remote station where 125 people are. Is that correct? So I guess I 
would argue that in the Bering Strait we have 16 such staging areas: 
Nome, which has a population of 4,000, and 15 outlying communities 
ranging down to little Diomede in the middle of the Bering Strait with 
a population of 80. I would prefer that we look at those as staging 
areas and invest in infrastructure in those communities.
    We have advocated for and continue to advocate for the U.S. Coast 
Guard to have more of a presence and establish a station in our region. 
And we support their Arctic Strategic Plan, and it's just a matter of 
funding them. Their presence is needed year round. Just because 
international vessels aren't traveling through the Bering Strait during 
the winter doesn't mean that there isn't activity out there during the 
winter months. I'm not sure if I answered your question, but I think 
there are 16 staging areas in the Bering Strait region that we could 
look at and a Coast Guard station is very welcome.
    Mr. Massaro. Can we take other questions?
    Questioner. Hi. My name is Mary Harrington. I'm with the State 
Department and I work on the Russia Desk. And this question is directed 
towards Julia and Admiral McAllister.
    I was wondering if you could comment on the Law of the Sea Treaty 
and whether the fact that the United States hasn't signed it holds us 
back in terms of our engagement in the Arctic.
    Thank you.
    Adm. McAllister. You want to take a shot at that first? You've 
probably got the more in-depth experience with it.
    Ms. Gourley. It's the other half of my office. [Laughter.]
    Well, as far as I know, I don't know that the position of the U.S. 
Government has changed, although I'm walking on thin ice here. But as 
far as I know, we still support the accession to the treaty. I'm 
looking at Teresa Hobgood, who's our congressional liaison and knows 
everything, to make sure I'm not saying anything wrong. But I guess it 
still remains to be seen--there hasn't been an official pronouncement 
made yet.
    Adm. McAllister. I'll simply offer, the Coast Guard's position is 
that we should accede to the treaty. We think it's important from a 
variety of perspectives. It is the framework that allows us the types 
of freedom of navigation that we enjoy on a routine basis. It allows us 
to be at the table when other nations submit claims for the Extended 
Continental Shelf. If and when we want to submit our own claim from a 
U.S. perspective, we'll need to be a signatory to the treaty to do 
that.
    And I understand that concerning a lot of this and other 
provisions, we follow them under customary international law to begin 
with, so that's been the argument that we don't necessarily have to 
sign on for this. But I think the more global conflicts in the maritime 
realm we see, the more important it becomes for us to have the 
credibility of being a signatory to the treaty when we try to uphold 
its provisions.
    Mr. Massaro. Other questions, please.
    Questioner. Hi. Alyson Azzara from the Maritime Administration. 
This question is for Mark.
    You talked about federal investment in infrastructure. Is there an 
appetite from the private sector to also invest in your needed 
components and the structures or to co-invest in things that you think 
are critical for the region?
    Mr. Smith. Yes, but I have to say the appetite is small, and that 
relates to another comment that Melanie made. So, 10,000 residents in 
the Bering Straits area, perhaps 50,000 in the arena. You may have 
heard folks gently and sometimes stridently complain about the cost of 
fuel in the Arctic, and that's directly related to the expense. And so 
to put the burden of developing very expensive infrastructure on the 
private sector that I operate in, you're really putting it on a very 
small base of consumers. These consumers also happen to be some of the 
poorest demographic in the United States. So there absolutely is not 
the appetite or even the capacity for me to charge my consumers enough 
to build important infrastructure. It has to be 99 percent based on 
something greater.
    Mr. Massaro. Thank you.
    Any other questions?
    Yes, please, Melanie.
    Ms. Bahnke. Alyson, not that I represent industry, but as a person 
that lives in a region where infrastructure investment is needed, I 
think the Federal Government could play a role in enticing the appetite 
of industry by way of tax credits. There are other mechanisms such as 
disadvantaged business zone, investment enticement. Within the native 
community, Alaska Native corporations when provided a hand up, not a 
handout, have risen to the top. There's a list of top 49 businesses in 
Alaska and a big portion of that is made up from Alaska Native 
corporations. And I think ANCs should be considered as a potential 
partner in any public/private investments that will improve 
infrastructure in our region.
    I mentioned earlier that our hearts go out to Puerto Rico, for 
example, right now, and we all get government's role in responding to 
repairing infrastructure when it comes to natural disaster. But I think 
we do really need to take a look at that responsibility. The U.S. has 
claimed authority over our region. We're part of the U.S. Alaska is not 
a territory, we're a state, not that that makes it any better than 
Puerto Rico, but there is an obligation for government to create 
infrastructure where it's absent, not just to play a role in repairing 
it when it's been devastated.
    So that's my comment to your question. There might not be an 
appetite right now by industry, but I sure think that the government 
could invite them to dinner.
    Mr. Smith. Just to follow on, too, Alaska really is a pioneer 
state. If you think about the American West 150 years ago, that's where 
we are. We have a bunch of island economies that are not connected with 
roads. We don't have electrical interties. We live a very isolated 
existence and there's just not a possibility, even if industry did have 
the appetite. It's just the scale isn't appropriate at this time.
    And it truly is that once you have a transportation infrastructure 
it allows any economic opportunity to be amplified. When you have a way 
of getting your goods, your services, and your resources that you're 
extracting or harvesting to market, you're going to stimulate economic 
activity. So it's something that's going to have to see a national 
investment on.
    Mr. Massaro. Great, thank you.
    OK, I have one more question. As a guy that's coming from outside 
the Arctic bubble and having just begun working on these issues, I 
guess working on them for almost about one year now, I was hoping maybe 
Julia or Admiral McAllister could take this on, maybe somebody else.
    It seems to me like there are just so many different federal 
agencies working on this issue, just so many have a piece of it. I was 
wondering, is the approach integrated? Are there better ways to go 
about this? To what extent is it a too-many-cooks-in-the-kitchen issue, 
if at all?
    Ms. Gourley. You've asked one of the most important and common 
questions asked, Paul, by lots of people out there. And actually, the 
last administration did attempt, a couple of the agencies who play in 
the Arctic, the Arctic Research Commission and I'm trying to remember 
who else, to put together an organogram of all of the agencies. There 
are at least half-a-dozen executive branch departments and all of their 
subagencies, together it's 25 to 30. To piece it all together and 
connect all the dots was very challenging. And it's a fascinating-
looking chart, actually.
    I don't know that there are too many cooks in the kitchen, because 
the fact that there are so many agencies actually doesn't equate to too 
many bodies or too much disruption. We actually function amazingly well 
at the working level. We have monthly collaboration, and the last 
administration had a higher-level similar interagency body at the 
political level. And it's all worked amazingly well for as many cooks 
as there are in the kitchen here.
    Personally--and I'm not saying this with any bias, but just purely 
from observation through the Arctic Council and working with the other 
Arctic states--I feel like the U.S. Government weirdly enough hangs 
together better and has more coordination than most of the other 
states. Which is odd, given how big we are, but we actually do 
collaborate quite well. That's not to say we couldn't do it better. We 
certainly could always do things better, but it's a pretty small 
federal community, even though it's a large number of agencies. And 
it's pretty well-integrated. We'll have to see how it continues.
    Mr. Massaro. Great to hear.
    Admiral, do you have anything to add?
    Adm. McAllister. I'll just add, from a regional or a local level, 
because that's where I spend more of my time, that we look to have the 
collaboration bodies as well, because that's the point of delivery of 
various services. Just as one example, we were able to set up not too 
long ago an Arctic Waterways Safety Commission that brings together a 
variety of Alaska Native communities to advise not only the Coast 
Guard, but all federal agencies on issues as they relate to this 
increase in traffic and maritime issues.
    And Julia's right. I mean, even at the regional or local level, 
some agencies are more engaged than others. But we, at least within the 
Coast Guard, make it a point to work collaboratively with our other 
federal agencies, with our state equivalents and with the tribal 
interests to ensure that we're not duplicating effort and that we're 
closing the most important gaps first. And that's sometimes the best we 
can do.
    Mr. Massaro. Great. Well, thank you all so much. We'll conclude the 
briefing there and thank you all for coming. [Applause.]
    [Whereupon, at 5:01 p.m., the briefing ended




  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
